CERTIFICATE OF SERVICE
No. TBD
Shreveport Chapter #237 of the United Daughters of the Confederacy
Petitioner(s)
v.
Caddo Parish Commission, et al.
Respondent(s)
STATE OF MASSACHUSETTS )
COUNTY OF NORFOLK
) SS.:
Being duly sworn, I depose and say under penalty of perjury:
That I am over the age of 18 years and am not a party to this action. I am an employee of
the Supreme Court Press, the preparer of the document, with mailing address at 1089 Commonwealth
Avenue, Suite 283, Boston, MA 02215.
On the undersigned date, I served the parties in the above captioned matter with the
SHREVEPORT CHAPTER #237 OF THE UNITED DAUGHTERS OF THE CONFEDERACY PETITION FOR WRIT
OF CERTIORARI, by mailing three (3) true and correct copies of the same by USPS Priority mail, postage
prepaid for delivery to the following addresses:
Donna Y. Frazier
Caddo Parish Attorney
P.O. Box 1127
505 Travis Street, Suite 800
Shreveport, LA 71101
(318) 226-6947
dfrazier@caddo.org
Counsel for Caddo Parish Commission, et al.

Lucas eDeus

July 12, 2019
SCP Tracking: Knadler-3223 First Street-Cover White

